                       DEPART.\IE::'>!T OF HE:\LTH AND HC~viA;\ SERVICES


                  OFFICE OF INSPECTOR GENERAL

                                         OCT 3 0 2014


TO: 	           Marilyn Tavenner
                Administrator
                Centers for Medicare & Medicaid Services

                       /S/
FR0 M:          Suzall-tre l¥fuHN:l'
                Deputy luspeetor. General
                 for EValuation and Inspections


SUBJECT: 	 OIG Memorandum Report: Drug Compendia Publishers Maintain Transparent
           Processes for Evaluating Anticancer Drug Therapies and Identifj;ing Potential
           Conflicts, OEI-07-13-00220


This memorandum report provides information regarding drug compendia publishers'
(publishers) compliance with Federal law that mandates transparency in their criteria for
evaluating anticancer drug therapies and identifying potential conflicts of interest on the part of
their staff. Medicare Parts Band D cover anticancer drugs for indications not approved by the
Food and Drug Administration (FDA) only ifthe drugs are supported by one or more of the four
authorized compendia. Conflicts of interest on the part of compendia staff might result in
anticancer drugs being included in the compendia that otherwise might not have been included.

To assess publishers' compliance as of October 2013 with Federal law related to transparency,
we (I) reviewed publishers' policies and procedures-as posted on their Web sites-for
evaluating anticancer drug therapies and for identifying potential conflicts of interest,
(2) interviewed each of the publishers' staff, and (3) interviewed Centers for Medicare &
Medicaid (CMS) staff.

SUMMARY

We found that the four publishers of each of the authorized compendia complied with Federal
laws for maintaining a transparent process for evaluating anticancer drug therapies and
identifying potential conflicts of interest. Specifically, publishers made the following available
on their Web sites: the criteria they used to evaluate requests for inclusion of a therapy, the
evidentiary materials they reviewed, a listing of all individuals who participated in reviews, and
the minutes from meetings in which they discussed requests. Additionally, all four publishers
included on their Web sites their definitions of potential conflicts of interest and their policies for
identifying potential conflicts related to anticancer drug therapies.
Page 2 – Marilyn Tavenner


BACKGROUND

For drugs to qualify for Medicare coverage, their use must meet several criteria. These criteria
are outlined in the Social Security Act (the Act) and applicable CMS Manuals. In most
circumstances, the drugs must be approved by FDA.1, 2 Medicare generally covers drugs for
indications not approved by FDA (i.e., for “off-label” indications) if the drugs are supported by
one or more authorized compendia.

Under Medicare Parts B and D, there are four compendia recognized as authorized sources for
the determination of medically accepted indications for anticancer drugs.3 These compendia are
American Hospital Formulary Service-Drug Information (AHFS-DI), Micromedex DrugDEX
(DrugDEX), National Comprehensive Cancer Network (NCCN) Drugs and Biologics
Compendium, and Clinical Pharmacology.

A compendium summarizes evidence of the effectiveness of drugs for given indications.4 The
publisher of each compendium evaluates scientific evidence from research literature for various
uses of drugs and—on the basis of this literature—publishes its own recommendations for use.5
Potential conflicts of interest might affect publishers’ recommendations. For example, a
compendium staff member who has a relationship with a pharmaceutical manufacturer may
benefit financially if the recommendation regarding the use of a drug is favorable toward that
manufacturer.

Federal Law Related to Evaluating Anticancer Drug Therapies and Identifying Potential
Conflicts of Interest
Section 1861 of the Act mandates that the publishers that evaluate anticancer drug therapies
maintain publicly transparent processes for (1) evaluating these therapies and (2) identifying
potential conflicts of interest related to inclusion of these therapies in the compendia.6

Evaluating Anticancer Drug Therapies. A compendium’s process for evaluating anticancer drug
therapies is considered to be transparent if the publisher makes the following information

1
  See generally the Act §§ 1861(t), 1860D-2(e)(1)(A), and 1927(k)(2); CMS, Medicare Benefit Policy Manual
(Internet-only manual), Pub. No. 100-02, ch. 1, § 30 and ch. 15, § 50; CMS, Medicare Prescription Drug Manual
(Internet-only manual), Pub. No. 100-18, ch. 6, § 10.
2
  The Act §§ 1861(t), 1860D-2(e)(1)(A), and 1927(k)(2); CMS, Medicare Benefit Policy Manual (Internet-only
manual), Pub. No. 100-02, ch. 1, § 30 and ch. 15, § 50; CMS, Medicare Prescription Drug Manual (Internet-only
manual), Pub. No. 100-18, ch. 6, § 10.
3
  The Act, §§ 1861(t)(2)(B)(ii)(I) and 1860D-2(e)(4)(A)(i) (regarding anticancer drugs under Medicare Parts B
and D, respectively). The Medicare Improvements for Patients and Providers Act amended the Part D statute to add
a new definition for “medically accepted indication” for Part D anticancer drugs. Specifically, it extended the
applicability of the four compendia under Part B to the anticancer drugs covered under Part D. See P. L.
No. 110-275 § 182 (July 15, 2008).
4
  Ross McKinney, et al. White Paper: Potential Conflict of Interest in the Production of Drug Compendia.
(Prepared by the Duke Evidence Based Practice Center under Contract HHSA 290 2007 10066 1). Agency for
Healthcare Research and Quality. April 2009.
5
  Ibid. The term “publisher” refers broadly to the organization that publishes each compendium. Publishers are not
employed by the Federal Government, nor are they entitled to Federal funds for purposes related to publishing the
compendia.
6
  The Act, § 1861(t)(2)(B), as amended by P.L. No. 110-275 § 182(b), July 15, 2008.


Drug Compendia Publishers Maintained Transparent Processes (OEI-07-13-00220)
Page 3 – Marilyn Tavenner


publicly available: (1) the criteria that it used to evaluate the request for inclusion of a therapy;
(2) all the evidentiary materials that it reviewed or considered pursuant to the request; (3) a
listing of all individuals who substantively participated in the review and disposition of the
request; and (4) the minutes and voting records of meetings for the review and disposition of the
request.7 Federal law does not explicitly stipulate how a publisher must implement its
transparent process for evaluating anticancer drug therapies. As a result, each publisher has
flexibility in implementing its transparent process for evaluating anticancer drug therapies.

Identifying Potential Conflicts Related to Inclusion of Anticancer Drug Therapies in the
Compendia. A compendium’s process for evaluating anticancer drug therapies is considered to
be transparent if the publisher makes available (in response to a public request) information
related to “direct or indirect financial relationships” and “ownership or investment interests …
between individuals or the spouse or minor child of individuals who have substantively
participated in the development or disposition of compendia recommendations and the
manufacturer or seller of the drug or biological being reviewed by the compendium.”8 Federal
law does not explicitly stipulate what constitutes a potential conflict of interest. As a result, each
publisher has discretion to determine what constitutes a potential conflict of interest.

METHODOLOGY

This study included: (1) a review of each publisher’s policies and procedures—as posted on its
Web site—for evaluating anticancer drug therapies and for identifying potential conflicts of
interest; (2) interviews with publishers’ staff who were knowledgeable as to how potential
conflicts were managed; and (3) an interview with CMS staff. Our review took place in
September and October of 2013. See Table 1 below for a listing of the four publishers and their
corresponding compendia.
Table 1: Publishers and Their Corresponding Compendia
                                                                         Corresponding
    Publisher
                                                                          Compendium

    American Society of Health-System Pharmacists (ASHP)                      AHFS-DI

    Truven Health Analytics                                                   DrugDEX

                                                                       NCCN Drugs and
    National Comprehensive Cancer Network (NCCN)
                                                                  Biologics Compendium

    Elsevier/Gold Standard                                        Clinical Pharmacology

Source: Office of Inspector General (OIG) legal analysis, 2014.

When interviewed, all four publishers reported that there were no public requests for information
related to potential conflicts of interest in 2013. Thus, our assessment of publishers’ compliance
with Federal law for transparency as it relates to potential conflicts was limited to reviewing
publishers’ policies and procedures and reviewing their respective Web sites.

We interviewed CMS staff about how they ensure that publishers comply with Federal law
related to transparency.

7
    42 CFR § 414.930.
8
    Ibid.


Drug Compendia Publishers Maintained Transparent Processes (OEI-07-13-00220)
Page 4 – Marilyn Tavenner


This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Publishers complied with Federal law related to transparency
As of October 2013, all four publishers maintained a transparent process for evaluating
anticancer drug therapies. All four publishers maintained the following information on their
publicly available Web sites: (1) the criteria that the compendium used to evaluate the request
for inclusion of a therapy; (2) all the evidentiary materials that the compendium reviewed or
considered pursuant to the request; (3) a listing of all individuals who substantively participated
in the review and disposition of the request; and (4) the minutes and voting records of meetings
for the review and disposition of the request.

All four publishers maintained a transparent process for identifying potential conflicts. All
included on their Web sites their policies for identifying potential conflicts related to anticancer
drug therapies. These publicly available policies required that staff assigned to work on off-label
uses for anticancer drug therapies complete initial self-disclosure forms identifying any direct or
indirect financial interests and that they periodically update the forms. All four publishers
required staff to file disclosure forms at least annually.

CMS staff provided oversight of publishers’ publicly transparent processes. CMS staff reported
corresponding with publishers to ensure compliance with Federal law related to transparency
policies for evaluating anticancer drug therapies and identifying conflicts related to those
therapies. CMS staff also reported reviewing the publishers’ Web sites and making internal notes
as to how these Web sites complied with Federal law.

The number and nature of staff disclosures varied across publishers
All four publishers defined potential conflicts of interest as financial interests that exceeded a
specific dollar threshold, and all four maintained policies that prohibit staff from participating in
reviews if their financial interests exceed the threshold. The specific dollar amounts for these
thresholds varied among the publishers. These varying dollar thresholds may have led to the
differences among the publishers in the numbers of potential conflicts of interest that they
disclosed. See Table 2 for information regarding the publishers’ respective dollar thresholds and
the number and percentage of staff who disclosed a potential conflict of interest.

The nature of staff disclosures also varied among publishers. NCCN staff disclosed potential
conflicts related to (1) conducting clinical research for a pharmaceutical company or drug
manufacturer for which the staff member has a direct or indirect financial interest; (2) serving as
a board member, speaker, expert witness, or consultant for a pharmaceutical company or drug
manufacturer; and (3) receiving equity or royalty interests. ASHP disclosed potential conflicts
related to receiving equity or royalty interests. Truven Health Analytics disclosed that one staff
member disclosed a potential conflict that was categorized as “other payment,” a term that was
not further defined.




Drug Compendia Publishers Maintained Transparent Processes (OEI-07-13-00220)
Page 5 – Marilyn Tavenner

Table 2: Publishers’ Dollar Thresholds for Conflicts of Interest and the Number and Percentage of
Disclosed Potential Conflicts of Interest Identified by Publishers in 2013

                                                                                                                                      Percentage of
                                                                                                                 Number of Staff
                                                                                        Number of Staff                                   Staff Who
                              Potential Conflict of                                                              Who Disclosed
 Publisher                                                        Dollar Threshold           Evaluating                                   Disclosed
                                                                                                                        Potential
                                           Interest                                     Anticancer Drug                                    Potential
                                                                                                                     Conflicts of
                                                                                              Therapies                                 Conflicts of
                                                                                                                 Interest in 2013
                                                                                                                                    Interest in 2013

                                                            Equal to or greater than
                                                            $20,000 or if aggregate
                            A financial relationship
 NCCN                                                               annual financial                  507                    264               52%
                               with a drug sponsor
                                                       relationships are equal to or
                                                               greater than $50,000

                         Relevant direct or indirect
                                                        Combined value exceeding
 ASHP                    financial interests in drug                                                    17                     2               17%
                                                                         $50,000
                                     manufacturers


                         Stock or equity ownership              $100,000 or greater
 Truven Health
                                      in any single                                                     12                     1                8%
 Analytics
                         pharmaceutical company


                         Stock or equity ownership
 Elsevier/Gold
                                      in any single             $100,000 or greater                     24                     0                0%
 Standard
                         pharmaceutical company

Source: OIG analysis of publishers’ policies and disclosed potential conflicts identified by publishers, 2014.


CONCLUSION

We found that all four publishers complied with Federal law to maintain a transparent process
for evaluating anticancer drug therapies and identifying potential conflicts of interest among
staff. Insufficient evaluation criteria and conflicts of interest among compendia staff could lead
to anticancer drugs being inappropriately recommended for inclusion in a compendium. Because
Medicare Parts B and D cover anticancer drugs supported by one or more of the four authorized
compendia, transparency of publishers’ policies helps safeguard against inappropriate Federal
payments for these drugs and protects Medicare beneficiaries from being prescribed drugs for
medically inappropriate uses.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-07-13-00220 in all correspondence.




Drug Compendia Publishers Maintained Transparent Processes (OEI-07-13-00220)
